 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Nursing Home Survey and Certification:
           Deficiency Trends




                    JUNE GIBBS BROWN
                     Inspector General

                        MARCH 1999
                       OEI-02-98-00331
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Lucille Cop, RN                                         Susan Burbach, Program Specialist
Danielle Fletcher
Daniel Ginsberg
Steve Shaw
Patricia Banta, RN intern




      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                     SUMMARY

PURPOSE

          To describe deficiency trends indicated by survey data and the extent to which these trends
          indicate quality of care in nursing homes.

BACKGROUND

          While many studies indicate that changes in law and regulations may have had a positive
          effect on improving the environment and overall health care of nursing home residents,
          recent reports by the Health Care Financing Administration and the General Accounting
          Office have raised serious concerns about residents’ care and well-being. The Senate
          Special Committee on Aging held hearings in the summer of 1998 on these results. At the
          same time, the Office of Inspector General undertook a series of studies aimed at assessing
          the quality of care in nursing homes.

          The 1987 Nursing Home Reform Act introduced an increased focus on the quality of life
          and care, the importance of the individual resident, and the need to help the Medicare and
          Medicaid nursing home residents reach the “highest practicable level” of functioning.
          Enforcement policies were established that gave the Health Care Financing Administration
          the authority to impose a variety of corrective measures when a facility is not in substantial
          compliance with the requirements for participation in the Medicare and/or Medicaid
          program.

          This report examines trends in the Online Survey Certification and Reporting System
          (OSCAR) data that indicate quality of care problems in nursing homes survey and
          certification programs. A companion report describes the overall capacity of the State
          survey and certification program to monitor quality of care in nursing homes. Other OIG
          reports address the trend in reported abuse in nursing home residents and the role of the
          ombudsman in protecting nursing home residents.

          We selected a purposive sample of ten States: New York, California, Texas, Ohio, Illinois,
          Pennsylvania, Massachusetts, Florida, New Jersey, and Tennessee. We analyzed OSCAR
          data in these States to identify trends in the amount and nature of deficiencies in nursing
          home quality of care. To better understand the overall context of these deficiencies, we
          conducted structured interviews with the State director and surveyors.




Survey and Certification: Deficiency Trends         1                                      OEI-02-98-00331
FINDINGS

Overall Deficiencies Are Decreasing, but “Quality of Care” Deficiencies Are
Increasing and Other Serious Deficiencies Persist at High Levels

          Deficiencies are classified into 17 major categories containing 185 subcategories of
          specific deficiencies. If a nursing home has deficiencies in three specific categories, it is
          considered to have substandard quality of care, for enforcement purposes, depending on
          the scope and severity. The three categories are: “quality of care”, “resident behavior and
          facility practices”, and “quality of life”.

          While almost all deficiencies have declined over the past four surveys, substandard quality
          of care deficiencies have decreased at a slower rate than all others. The 49 substandard
          quality of care deficiencies have decreased by only 14 percent over the last four standard
          surveys compared to a decrease of 32 percent for the other 136 deficiencies which do not
          fall into the substandard quality of care categories.

          Although in total, substandard quality of care deficiencies have decreased, the
          subcategory “quality of care” has increased. Thirteen of the 25 deficiencies in the “quality
          of care” subcategory are higher on the current survey than they were three surveys prior.
          Some noteworthy deficiency increases include the failure to provide range of motion
          treatment, lack of adequate supervision or devices to prevent accidents, and catheterizing
          residents without clinical need. Additionally, three of those 13 have increased in every
          survey over the past four standard surveys.

          Although some deficiencies have declined over the years, the number of deficiencies that
          continue to be cited remains a cause for concern. For example, pressure sores are bruises
          or open sores on the skin which could be an indication that other kinds of problems are
          occurring such as urinary incontinence, malnutrition or dehydration. If a resident has a
          cognitive loss or dementia, or physical restraints, or psychotropic drugs are being used,
          the resident is vulnerable to resultant pressure sores.

Nursing Homes with Chronic Quality of Care Problems Exist

          The OSCAR data identifies some nursing homes that continue to have the same
          deficiencies every survey. Four hundred and sixty three nursing homes have been cited
          with the same deficiencies over the past four contiguous surveys, representing 6 percent of
          all homes in the sample States. Nursing homes with serious deficiencies or constant non-
          compliance issues are considered to have chronic quality of care problems.

          State survey and certification directors and surveyors describe circumstances similar to
          what the OSCAR data show. They cite that the percentage of nursing homes with these
          problems is between one and 20 percent of all homes in their respective States. Half of

Survey and Certification: Deficiency Trends         2                                      OEI-02-98-00331
          the State directors mention pressure sores and nutrition issues as frequent chronic quality
          of care problems in their nursing homes. The OSCAR data show the deficiency that
          occurs the most frequently, both in our sample States and nationally, is the failure to give
          proper treatment to prevent or treat pressure sores. Surveyors concur with directors;
          most also mention that staffing shortages and inferior staff proficiency levels precipitate
          chronic quality of care in nursing homes.

State Directors and Surveyors Express Reservations about Relying Exclusively
on Oscar Data to Identify and Understand Problems in Nursing Homes

          Most surveyors and more than half of directors are satisfied with OSCAR data but
          propose changes. OSCAR data may not catch all the problems that exist in a nursing
          home due to the current survey process. Surveyors visit most facilities only once a year
          and cannot be cognizant of problems that occur throughout the year. Surveyors suggest
          using OSCAR data in conjunction with other tools to obtain an accurate view of quality of
          care.

          The majority of the State survey and certification directors and surveyors we interviewed
          believe that certain deficiencies have unclear definitions. They note some specific
          deficiencies that are open to individual interpretation and discretion. Of the 17 categories,
          those that are considered most problematic are “resident rights”, “resident behavior and
          facility practices”, “quality of life”, “quality of care”, and “nursing services.”

RECOMMENDATION

          The resident-centered long-term care requirements of the nursing home survey are
          essential tp guarantee the quality of care in nursing homes. Clearly some major problems
          need to be addressed. Our findings support and elaborate on the Health Care Financing
          Administration’s initiative to strengthen the enforcement efforts by:

            <       making them more timely and effective,
            <       changing the survey schedule to make surveys more unpredictable,
            <       increasing the number of night and weekend surveys,
            <       increasing the number of surveys at nursing homes with chronic quality of care
                    problems, and
            <       focusing on specific problems such as pressure sores, dehydration, and
                    malnutrition.

          These initiatives, if carried out completely, appear to be responsive to most of the
          problems in this report as well as our companion report “Nursing Home Survey and
          Certification: Overall Capacity.”

          Many of the most frequently cited deficiencies are directly related to reported shortage of

Survey and Certification: Deficiency Trends          3                                    OEI-02-98-00331
          direct care staff. The failure to provide proper treatment to prevent or treat pressure sores
          illustrates the lack of direct care staff to assure that residents are properly hydrated,
          nourished and turned frequently. In light of our findings in this report, additional action is
          needed. We recommend that the Health Care Financing Administration:

            <       develop staffing standards for registered nurses and certified nurse assistants in
                    nursing homes to assure sufficient staff on all shifts to enable residents to have
                    proper care. Staffing standards should account for the intensity of care needed,
                    qualifications of the staff, and the specific characteristics of both the nursing home
                    and the residents.

           AGENCY COMMENTS

          We received comments on the draft report from HCFA and the Assistant Secretary for
          Planning and Evaluation (ASPE). The HCFA concurs with our recommendations. The
          ASL informally commented on the reports, and we made the appropriate changes.

          The ASPE expressed some concern about the ability of OSCAR data to assess quality of
          care in nursing homes. We recognize the limitations of OSCAR but used it as only one
          indicator of quality. We are happy to re-emphasize here what we say in our report that
          OSCAR data should not be looked at independently. In this report we used it in
          combination with the views of nursing home surveyors and State Directors.




Survey and Certification: Deficiency Trends           4                                       OEI-02-98-00331
                          TABLE                        OF             CONTENTS


                                                                                                                              PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS
      Deficiency Trends . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          Chronic Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

          Data Accuracy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

APPENDICES
    A: Substandard Quality of Care Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

          B: Deficiency Tags . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

          C: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35




Survey and Certification: Deficiency Trends                       5                                                   OEI-02-98-00331
                                       INTRODUCTION

PURPOSE

          To describe deficiency trends indicated by survey data and the extent to which these trends
          indicate quality of care in nursing homes.

BACKGROUND

          While many studies indicate that changes in law and regulations may have had a positive
          effect on improving the environment and overall health care of nursing home residents,
          recent reports by the Health Care Financing Administration (HCFA) and the General
          Accounting Office have raised serious concerns about residents’ care and well-being. The
          Senate Special Committee on Aging held hearings in the summer of 1998 on these results.
          At the same time, the Office of Inspector General undertook additional studies aimed at
          assessing the quality of care in nursing homes. Among these were studies on prescription
          drug utilization, patient abuse, and criminal background on employees. This report
          examines trends in the Online Survey Certification and Reporting System (OSCAR) data
          that indicate quality of care problems in nursing homes survey and certification data. A
          companion report describes the overall capacity of the State survey and certification
          program to monitor quality of care in nursing homes. Future OIG reports will address the
          trend in reported abuse in nursing home residents, the role of the ombudsman, and the
          availability of nursing home survey results.

          Generally, a nursing home is a residential facility offering daily living assistance to
          individuals who are physically or mentally unable to live independently. Residents are
          provided rooms, meals, assistance with daily living, and in most cases, some medical
          treatment for those who require it. Medicare can help pay for skilled nursing facility
          (SNF) care for up to 100 days in a benefit period when a beneficiary meets certain
          conditions. Medicaid coverage varies among States. Medicaid eligible beneficiaries who
          require custodial care such as help with eating, bathing, taking medicine and toileting, as
          well as those who require skilled care may have nursing home stay paid for by Medicaid.
          Medicaid payments to nursing homes in 1996 totaled $29.6 billion. In 1989 Medicare paid
          $2.8 billion to nursing homes, an amount totaling 4.7 percent of the Medicare budget. In
          1996 this amount had increased to $10.6 billion, totaling 9 percent of the Medicare
          budget.

          In 1986 the Institute of Medicine conducted a study on nursing home regulation. The
          Institute reported prevalent problems regarding the quality of care for nursing home
          residents and the need for stronger Federal regulations. In 1987 the General Accounting


Survey and Certification: Deficiency Trends        6                                    OEI-02-98-00331
          Office (GAO) reported that over one third of nursing homes were operating below the
          Federal minimum standards. These reports, along with widespread concern regarding
          nursing home conditions, persuaded Congress to pass the Omnibus Budget Reconciliation
          Act of 1987 (OBRA 1987). As a part of OBRA 1987, Congress passed the
          comprehensive Nursing Home Reform Act (PL 100-203). These actions expanded
          requirements that nursing facilities had to comply with prior to Medicare certification.
          The Nursing Home Reform Act also ceded personal rights to nursing home residents such
          as the right to be free of physical or mental abuse, and the right to be free from chemical
          and physical restraints. It also altered the principles for enforcement of Federal standards
          of care in nursing homes.

Medicare Requirements

          The Health Care Financing Administration (HCFA) has the responsibility to act as
          “prudent purchaser” by ensuring that nursing homes participating in Medicare and/or
          Medicaid meet certain requirements for quality environment and services. These
          requirements are found at 42 Code of Federal Regulations (CFR) Part 483, Subpart B.
          The OBRA 1987, as amended in 1988, 1989, and 1990, changed these requirements by
          introducing an increased focus on the quality of life and care, the importance of the
          individual resident, and the need to help the resident reach the “highest practicable level”
          of functioning. It also included interviewing and assessing residents rather than simply
          reviewing medical records.

Enforcement Procedures

          The 1987 Nursing Home Reform Act enforcement provisions were enacted when the
          State Operations Manual (SOM) became effective on July 1, 1995. The HCFA had
          several process goals during the implementation of the new survey and enforcement
          systems. The first was to promote consistency through extensive training, the second was
          to link appropriate remedies to deficiencies, and the third was to avoid unnecessary
          procedures. Congress recognized that one enforcement response would not be
          appropriate for all deficiencies. Enforcement policies were established that gave HCFA
          the license to impose a variety of corrective measures when a facility is not in substantial
          compliance with the requirements for participation in the Medicare and/or Medicaid
          program. Some options include temporary management, denial of payment for new
          admissions, civil money penalties, termination of the facility, or State monitoring of the
          facility. States are responsible for establishing their own remedy guidelines.

          The HCFA imposed a number of administrative changes on enforcement procedures
          following the implementation of the State Operations Manual. In June of 1995, HCFA
          enacted a temporary moratorium on the collection of certain lower-level money penalties
          (CMPs). The moratorium preceded HCFA’s decision to alter the State Operations
          Manual in December of 1996. “Civil monetary penalties are now limited to situations of


Survey and Certification: Deficiency Trends         7                                      OEI-02-98-00331
          immediate jeopardy or to nursing facilities that are poor performers or have serious
          deficiencies that are not corrected at the time of a revisit.” Additional changes by HCFA
          redefined the scope of deficiencies, permitted States to avoid revisits in facilities that have
          lower level deficiencies, and established new terms to define facilities that are not in
          substantial compliance.

Requirements of Surveys

          An important characteristic of nursing homes is their Federal certification status for the
          Medicare and/or Medicaid programs. While some nursing homes may not meet
          certification requirements, or may elect not to participate in either program, nearly all
          nursing homes had some form of certification in 1996. The Nursing Home Reform Act
          defines the State survey and certification process for determining nursing home
          compliance with the Federal standards.

          To ensure acceptable compliance, both the State for Medicaid facilities, and HCFA for
          Medicare facilities, are responsible for performing routine facility surveys. For those
          facilities designated as dually-certified, HCFA has the primary responsibility. The HCFA
          contracts with States to perform the surveys for Medicare and dually-certified nursing
          homes. The survey process determines, and the resulting survey documentation records
          (HCFA-2567), the compliance or noncompliance of the facilities. When a facility fails to
          meet a specific requirement, a deficiency or citation is given to the facility by the
          surveyors. Surveyors provide the reasons justifying any resulting enforcement action and
          the record on which to defend that action in the appeals process. Surveyors are instructed
          to use the Principles of Documentation when determining the extent of non-compliance.
          Generally, there are 20 principles that should be considered in the citation of deficiencies
          on the HCFA-2567. These principals are generic and apply to the documentation of
          survey outcomes regardless of the program (Medicare/Medicaid).

          As a result of the Nursing Home Reform Act, a new survey and certification process was
          implemented in 1995. All nursing facilities are now subject to an unannounced standard
          survey “no later than 15 months after the date of the previous standard survey,” and the
          Statewide average interval between standard surveys must be 12 months or less,” creating
          a Federal standard survey window between 9 and 15 months. Each standard survey
          includes a stratified case mix of nursing home residents measuring medical, nursing and
          rehabilitative care, dietary and nutrition services, activities, social participation, sanitation,
          infection control, and the physical environment. Written plans of care are reviewed to
          determine their adequacy and an audit of residents’ assessments are conducted to
          determine the accuracy of such assessments. There is also a review of facility compliance
          of residents’ rights.

          In addition to the regular survey process there are “special” and “extended” surveys.
          Special surveys may be conducted within two months of any change in ownership,


Survey and Certification: Deficiency Trends           8                                        OEI-02-98-00331
          administration, management, or director of nursing to determine if the change is having an
          effect on the quality of care in the facility. Extended surveys are performed immediately
          or within two weeks after the standard survey completion on those facilities found to have
          provided substandard quality of care. The survey team reviews the policies and
          procedures that produced the substandard care, expands the size of the sample of
          resident’s assessments, reviews staffing, in-service training, and if necessary, contracts
          with consultants.

Complaint Procedures

          Each State is required to maintain written procedures and adequate staff to investigate
          complaints of violations at nursing homes. States must review all allegations of resident
          neglect and abuse, and misappropriation of resident property. All allegations, regardless
          of source, must be reviewed in a timely manner. If an allegation is found to have
          occurred, the State must notify in writing, the individuals implicated and the administrator
          of the nursing home where the incident transpired. In addition, each State is required to
          notify the nurse aid registry and licensure boards when an abuse or neglect claim has been
          substantiated.

Online Survey Certification and Reporting System (OSCAR)

          The HCFA’s Online Survey Certification and Reporting System (OSCAR) came online in
          October 1991 as a replacement for the Medicare/Medicaid Automated Certification
          System (MMACS) and the Rapid Data Retrieval System (RADARS). The HCFA uses
          OSCAR in its survey of Medicare and Medicaid providers to monitor State agency and
          provider performance. OSCAR contains data for the current and 3 previous surveys.
          Some of the data is overwritten as new information is entered (e.g. number of beds,
          address, and employment information), but deficiency data remains and is tracked
          historically. The HCFA recently began tracking the scope and severity of deficiencies
          historically as well.

          Part of the OSCAR data is self-reported information by the nursing homes about the
          facility and its’ patients. The remaining data is information generated by the surveyors
          based on deficiencies. The Federal regulations detailing survey requirements are classified
          into 17 major categories in the HCFA State Operations Manual:

            <       resident rights;
            <       admission, transfer and discharge rights;
            <       resident behavior and facility practices;
            <       quality of life;
            <       resident assessment;
            <       quality of care;
            <       nursing services;


Survey and Certification: Deficiency Trends           9                                   OEI-02-98-00331
            <       dietary services;
            <       physician services;
            <       rehabilitation services;
            <       dental services;
            <       pharmacy services;
            <       infection control;
            <       physical environment;
            <       administration;
            <       laboratory; and
            <       other.

          The specific survey requirements within these categories were consolidated from 325
          individual items to 185 items effective on July 1, 1995. When a nursing home fails to meet
          a specific requirement which could result in a negative impact on the health and safety of
          residents, a deficiency is given to the facility by a State surveyor team. A deficiency is
          rated based on scope and severity for the purposes of enforcement.

          When a facility has one or more deficiencies related to resident behavior and facility
          practices, quality of life, or quality of care that constitute either immediate jeopardy to
          resident health and safety; a pattern of or widespread actual harm that is not immediate
          jeopardy; or a widespread potential for more than minimal harm, but less than immediate
          jeopardy with no actual harm it is considered substandard quality of care. Resident
          behavior and facility practices includes the areas of restraints, abuse and staff treatment of
          residents; quality if life includes the residents ability to make decisions about his or her
          daily activities and the nursing home’s accommodation of those needs; and quality of care
          includes the technical ability of the nursing home to prevent and treat the medical
          conditions of the residents. For a complete listing of the deficiencies in each substandard
          quality of care category see Appendix B.

Prior Studies

          A recent study, “The Regulation and Enforcement of Federal Nursing Home Standards”
          by Charlene Harrington published in March of 1998, details the problems with nursing
          home certification that precipitated the action by Congress in passing the Nursing Home
          Reform Act. She challenges the declining State deficiency averages by raising the notion
          that the enforcement process may be weakening rather than nursing facilities improving
          quality of care.

          “The National State Auditors Association Joint Performance Audit on Long-Term Care”,
          completed in May of 1998 by the Louisiana Office of the Legislative Auditor, compiled
          information from ten States regarding survey and certification concerns. Issues discussed
          include licensing, inspection, sanctions, complaints, and reimbursement. The audit
          findings conclude that States should vary the timing of inspections, evaluate how


Survey and Certification: Deficiency Trends         10                                      OEI-02-98-00331
          aggressively they are imposing State sanctions on facilities with deficiencies, and avoid
          delaying the investigation of complaints.

          The Secretary released a report to Congress in July of 1998 indicating that significant
          improvements were made since 1995 in the quality of care delivered by nursing homes.
          These improvements included more appropriate use of physical restraints, anti-psychotic
          drugs, anti-depressants, urinary catheters, and hearing aids. The report also found a need
          for further improvements by States, nursing homes, and others. Additional steps will be
          taken to address the problems identified in the report and include tougher enforcement of
          Medicare and/or Medicaid rules. Efforts will be aimed at preventing instances of bed
          sores, dehydration, and nutrition problems. The following are new approaches aimed at
          improving quality of care: facilities that have repeat offenses will face sanctions without a
          grace period; inspections will be conducted more frequently for repeat offenders without
          decreasing inspections at other facilities; inspections will be staggered; a set amount of
          inspections will be conducted on weekends; and efforts will be focused on facilities within
          chains that have a record of non-compliance.

          In conjunction with the Secretary’s report to Congress, the President announced a new
          nursing home care initiative to provide enhanced protections and to target needed
          improvement in nursing home care. Proposed actions include checking criminal
          backgrounds of nursing home workers, establishing a national registry of employees
          convicted of abusing patients, targeting nursing home chains with poor records, cutting off
          inspection funds to States with poor records of citing substandard quality of care,
          publishing annual nursing home surveys on the Internet, increasing Federal oversight of
          State inspections, providing additional training to State officials, changing the survey
          schedule to make them more unpredictable, increasing the number of night and weekend
          surveys, and re-authorizing the Ombudsman program in the Older Americans Act.

          One week after the President’s initiative, the Government Accounting Office (GAO)
          published a report examining the quality of care in 1,370 California nursing homes that
          were inspected from 1995 to 1998. They found 30 percent of the homes had violations
          that caused death or life-threatening harm to residents, or had understated the frequency
          of poor care by falsifying medical records. As a result of this report, the US Senate
          Special Committee on Aging, chaired by Senator Charles Grassley, held hearings in July
          1998 to discuss the findings on the quality of care in nursing homes.

          The HCFA has a number of studies in progress evaluating various aspects of survey and
          certification. Some studies include staffing ratios, quality of care, and resident assessment.




Survey and Certification: Deficiency Trends        11                                      OEI-02-98-00331
METHODOLOGY

          This inspection is based on information gathered from three different sources: OSCAR
          data, interviews with State survey and certification directors and State survey and
          certification surveyors. We looked for consistencies between the data and the
          observations of the insiders we interviewed. We selected a purposive sample of ten
          States: New York, California, Texas, Ohio, Illinois, Pennsylvania, Massachusetts, Florida,
          New Jersey, and Tennessee. These States have comprehensive survey and certification
          programs and represent 55.8 percent of the nation’s total skilled nursing beds. In addition,
          they represent 56 percent ($23 billion) of Medicaid institutional long-term care
          expenditures in 1996. The purposive sample represents States of various sizes in different
          parts of the country.

OSCAR Data

          The Online Survey Certification and Reporting System (OSCAR) is the system HCFA
          uses in its survey of Medicare and Medicaid providers to monitor State agency and
          provider performance. OSCAR contains data for the current and three previous standard
          surveys. The second part of OSCAR is information generated by the surveyors based on
          deficiencies. The Federal regulations detailing survey requirements are classified into 17
          major categories. We analyzed three of these categories which could determine poor
          quality of care depending on their scope and severity. Resident behavior and facility
          practices includes the areas of restraints, abuse and staff treatment of residents; quality of
          life includes the residents ability to make decisions about his or her daily activities and the
          nursing home’s accommodation of those needs; and quality of care includes the technical
          ability of the nursing home to prevent and treat the medical conditions of the residents.
          We looked at those substandard quality of care deficiencies which increased over the last
          four standard surveys, those that decreased and those that remained high, and those
          deficiencies that repeated over the last four surveys.

          Additionally, we looked at the top 10 of all deficiencies to determine which deficiencies
          are cited most frequently. We also looked at OSCAR complaint data specifically at
          complaints of abuse. We compared complaints of abuse filed from January 1997 to July
          1998 to abuse deficiencies in the most current survey. The direct relationship between
          abuse codes in the deficiency and complaint tables allowed us to look closely at the scope
          of abuse and examine enforcement patterns and outcomes. Since information in the
          OSCAR database is constantly being updated, we downloaded OSCAR data on August 4,
          1998. In all cases we compared our 10 sample States to aggregate national data both for
          deficiencies and complaints.




Survey and Certification: Deficiency Trends         12                                      OEI-02-98-00331
Interviews

          We also conducted a total of thirty structured interviews; three interviews in each of the
          ten sample States, one with the State survey and certification director or a designee, and
          two with State surveyors within each State. The two State surveyors were selected
          randomly from a list of at least ten surveyors submitted by the State director. During
          these interviews, we obtained information about the State survey and certification program
          structure, the processes utilized to monitor quality of care, how deficiencies are addressed,
          and the respondents satisfaction with the process.

          We selected both directors and surveyors for their different perspectives on the survey and
          certification process. We compared the information provided by the directors to
          information provided by surveyors. In our analysis we paid special attention to consensus
          within and among the groups.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Survey and Certification: Deficiency Trends        13                                     OEI-02-98-00331
                                              FINDINGS

Overall deficiencies are decreasing, but “quality of care”
deficiencies are increasing and other serious deficiencies
persist at high levels

General trends

          Potential deficiencies are classified into 17 major categories containing 185 subcategories
          of specific deficiencies. If a nursing home has deficiencies in three specific categories, it
          is considered to have substandard quality of care for enforcement purposes depending on
          the scope and severity. These three categories are: “quality of care”, “resident behavior
          and facility practices”, and “quality of life”.

          “Resident behavior and facility practices” and “quality of life,” two of the three
          substandard quality of care categories, are lower in the current standard survey than they
          were in the prior three. See Appendix A for a complete listing of the deficiencies in these
          categories. In addition, some “quality of care” deficiencies have also decreased over the
          past four surveys. In all three substandard quality of care categories, nine deficiencies
          have decreased by more than 50 percent between the current survey and three surveys
          prior. See Table I below.
                                                 Table I
                 Deficiencies that have Decreased by More than 50 percent

                                    Deficiencies                 Percent Decrease
                 Facility promotes/enhances                             -87%
                 quality of life
                 Facility must employ a qualified social                -79%
                 worker
                 Private closet space                                   -74%
                 Facility must listen and respond to                    -72%
                 groups
                 Adequate and comfortable light                         -61%
                 Clean bed and bath linens                              -55%



Survey and Certification: Deficiency Trends            14                                 OEI-02-98-00331
                 Gradual dose reduction of                              -55%
                 antipsychotic drugs
                 No naso-gastric tube unless unavoidable                -53%
                 Right to be free from chemical restraints              -52%
                                                                        Source: OSCAR Data

          On the national level, six deficiencies decreased by 50 percent or more. Five deficiencies
          mirror those of the sample States in addition to failure to provide activities of daily living
          to dependent residents which has also declined over 50 percent. About 40 percent (20 out
          of 49) of all deficiencies in the three substandard quality of care categories have declined
          every survey for the past four surveys. These declines range from a 10 percent decline to
          a 79 percent decline. Nationally, 30 percent (15 out of 49) of all deficiencies declined
          every survey with decreases ranging from 17 percent to 75 percent.

          We compared the 49 deficiencies in the 3 substandard quality of care categories to the
          other 136 deficiencies. The 49 substandard quality of care deficiencies have decreased by
          only 14 percent over the last four standard surveys compared to a 32 percent decrease for
          all other deficiencies that do not fall in the substandard quality of care category. See
          Figure I below.


                                          Figure I
                Sample State Deficiency Trends in Four Consecutive Surveys




                                                                        Source: OSCAR Data



Survey and Certification: Deficiency Trends         15                                     OEI-02-98-00331
          The slower decrease in substandard quality of care deficiencies has in effect increased
          their proportion among all OSCAR deficiencies. As mentioned before, certain
          substandard quality of care deficiencies in the ‘quality of care’ category have actually
          increased such as the failure to supply range of motion treatment and services, failure to
          provide supervision or devices to prevent accidents, and failure to provide proper
          treatment or heal pressure sores. When we look at national substandard quality of care
          deficiencies, they mirror the trend of those in sample States.

          Sample State outliers to the above trend include New Jersey, Florida, and Illinois. New
          Jersey differs from the trend because substandard quality of care deficiencies decreased at
          a faster rate (46 percent) than all others (26 percent). Substandard quality of care
          deficiencies in Florida and Illinois have actually increased (12 percent in Florida and 11
          percent in Illinois), while all other deficiencies decreased (6 percent in Florida and 33
          percent in Illinois).

“Quality of care” deficiencies

          Thirteen of the 25 “quality of care” deficiencies in sample States are higher on the current
          survey than they were three surveys prior. These 13 deficiencies were cited 6,413 times
          on the current survey compared to 5,246 times three surveys prior, an increase of almost
          25 percent. See Table II below for a listing of the 13 deficiencies that have increased over
          the past 3 surveys. See Appendix A for a complete listing of all ‘quality of care’
          deficiencies and their survey trends.

                                                Table II
                           Increasing Deficiencies Over Past Three Surveys

                                    Deficiencies                    Percent Increase
             Adequate supervision and/or devices to prevent               +79%
             accidents
             Appropriate range of motion treatment                        +48%
             Resident not catheterized unless unavoidable                 +42%
             Resident receives treatment to maintain vision               +35%
             and hearing

             ADL care provided for dependent residents                    +33%
             No reduction in range of motion unless                       +29%
             unavoidable




Survey and Certification: Deficiency Trends           16                                  OEI-02-98-00331
             Proper treatment to prevent or treat pressure                +21%
             sores

             Resident given appropriate treatment to improve               +8%
             abilities
             Proper treatment and care for special needs                   +7%
             No development of mental problems unless                      +5%
             unavoidable

             Appropriate treatment for incontinence                        +5%
             Provides necessary care for highest practicable               +4%
             well-being

             Proper care for residents with naso-gastric tubes             +1%
                                                                              Source: OSCAR Data

          Additionally, 3 of the 13 “quality of care” deficiencies that have increased, have increased
          in every survey for the past four surveys. These three include nursing homes catheterizing
          residents without demonstrating clinical need, the nursing homes failure to provide range
          of motion treatment, and the lack of supervision and/or devices to prevent accidents. See
          Figure II below.
                                                 Figure II
                     Sample State Deficiencies Increasing Every Survey




Survey and Certification: Deficiency Trends            17                                OEI-02-98-00331
          When looking at the ‘quality of care’ deficiencies nationwide, 10 deficiencies are higher
          on the current survey than they were three surveys prior. These ten deficiencies were
          cited 10,497 times on the current survey compared to 7,726 times three surveys prior, an
          increase of 36 percent. Four of these 10 deficiencies have increased in every survey for
          the past four surveys. These include the nursing homes failure to provide necessary care
          for high well-being, the failure to provide activities of daily living care for dependent
          residents, the lack of supervision and/or devices to prevent accidents, and the failure to
          provide range of motion treatment. See Figure III below.

                                                Figure III
                             National Deficiencies Increasing Every Survey




                                                                               Source: OSCAR Data
High deficiencies

          Although some deficiencies have declined over the years, the number of deficiencies still
          cited is a cause for concern. Deficiencies often lead to further medical problems or
          indicate other issues. For example, pressure sores are bruises or open sores on the skin
          which could be an indication that other kinds of problems are occurring with residents in
          the nursing home such as urinary incontinence, malnutrition or dehydration. If a resident
          has a cognitive loss or dementia, physical restraints, or psychotropic drugs are being used,
          the resident is also vulnerable to resultant pressure sores.



Survey and Certification: Deficiency Trends       18                                     OEI-02-98-00331
          According to OSCAR data, a total of 7,196 nursing homes exist in sample States. Ten
          substandard quality of care deficiencies in sample States have been cited more than 699
          times on the latest standard survey, affecting more than 10 percent of nursing homes. Ten
          substandard quality of care deficiencies also affect more than 10 percent of nursing homes
          nationwide. Five deficiencies affect at least 13 percent of sample State and national
          nursing homes and they include failure to prevent pressure sores, failure to remain free of
          accident hazards, failure to maintain or enhance dignity, failure to provide
          housekeeping to maintain sanitary, orderly and comfortable interiors, and failure to
          provide the necessary care for the highest practicable well-being. See Table III below.

                                             Table III
                         Top Ten Substandard Quality of Care Deficiencies
                                 Cited On Latest Standard Survey

                  Deficiency                  # of Sample      % of           # of          % of
                                                 State        Sample       National       National
                                              Deficiencies     State      Deficiencies    Facilities
                                                             Facilities
 Proper treatment to prevent or                  1,186         16%           2,416           16%
 treat pressure sores
 Facility is free of accident hazards            1,164         16%           2,381           16%
 Facility promotes care that                     1,115         16%           2,032           14%
 maintains/enhances dignity
 Housekeeping and maintenance                    1,023         14%           1,916           13%
 Provides necessary care for                      972          14%           2,247           15%
 highest practicable well-being
 Right to be free from physical                   958          13%           1,942           13%
 restraints
 Should have policies that accommodate            787          11%           1,348            9%
 needs

 Drug regimen free from unnecessary               768          11%           1,575           11%
 drugs

 Appropriate treatment for incontinence           750          10%           1,560           10%
 “Activities of daily living” care                699          10%           1,598           11%
 provided for dependent residents

                                                                              Source: OSCAR data


Survey and Certification: Deficiency Trends          19                                  OEI-02-98-00331
          As opposed to the deficiencies cited the most, some deficiencies remain low. Eighteen
          substandard quality of care deficiencies in sample States have been cited less than 100
          times on the latest standard survey, affecting less than one percent of nursing homes.
          Examples of some of these deficiencies include feeding residents with naso-gastric tubes
          without medical need, hiring non-qualified social workers, facility prevents residents
          participation in social, religious, or community activities, and the nursing home fails to
          promote maintenance or enhancement of each resident’s quality of life.


Nursing homes with chronic quality of care problems exist
          While State directors and surveyors express reservations about OSCAR data, interviews
          with them support the OSCAR data about repeat offenders. The OSCAR data shows 463
          nursing homes have been cited with the same deficiencies over the past four contiguous
          surveys, representing 6 percent of all homes in the sample States. The number of nursing
          homes with repeat quality of care deficiencies ranges from 2 in New Jersey to 270 in
          California. Table IV shows the number of nursing homes in sample States with repeat
          quality of care deficiencies.

                                       Table IV
         Number of Nursing Homes in Sample States with Repeat Substandard
                   Quality of Care Deficiencies over Four Surveys

               State             Number of Nursing     Percent of Nursing   Number of Repeat
                                    Homes with         Homes with Repeat      Deficiencies
                                 Repeat Deficiencies      Deficiencies

                CA                            270             21%                  369

                 FL                           28              4%                    33

                 IL                           54              8%                    62

                MA                             8              2%                    8

                 NJ                            2              1%                    2

                NY                             4              1%                    4

                OH                            28              3%                    33

                 PA                           10              1%                    11

                TN                             3              1%                    3

                TX                            56              5%                    70

                                                                               Source: OSCAR Data



Survey and Certification: Deficiency Trends            20                                 OEI-02-98-00331
          Table V below identifies the number of nursing homes affected by the top 10 repeat
          substandard quality of care deficiencies in the 10 sample States. Failure of the nursing
          home to promote care that maintains or promotes dignity ranks first on the list in both the
          sample States and the national numbers.

                                          Table V
                    Top 10 Substandard Quality of Care Repeat Deficiencies

                                   Deficiency                     Facilities in         Facilities
                                                                 Sample States         Nationwide


               Facility promotes care that                            142                 174
               maintains or enhances dignity

               Facility must provide necessary                         91                 151
               housekeeping and maintenance services

               Facility should have policies that                      68                  80
               accommodate needs and preferences

               Facility is free of accident hazards                    64                  99

               Drug regimen free of unnecessary drugs                  33                  58

               Proper treatment to prevent or treat                    27                  74
               pressure sores

               Right to be free from physical restraints               24                  44

               Adequate supervision and/or devices to                  22                  27
               prevent accidents

               Facility provides medically related social              19                  29
               services

               Facility must provide a safe, clean, homelike           15                  32
               environment


                                                                                  Source: OSCAR Data



          State directors and surveyors report that nursing homes with chronic quality of care
          problems exist in their individual States. Nursing homes with serious deficiencies or
          constant non-compliance issues are considered to have chronic quality of care problems.
          They say that the percentage of nursing homes with these problems is between 1 and 20
          percent of all nursing homes in their respective States. Half of the State directors mention
          pressure sores and nutrition issues as frequent chronic quality of care problems in their
          nursing homes. Consistent with these observations, OSCAR data show the deficiency that


Survey and Certification: Deficiency Trends                 21                                       OEI-02-98-00331
          occurs the most frequently, both in our sample States and nationwide, is the failure to give
          proper treatment to prevent or treat pressure sores. See Table III on page 18.

          Surveyors concur with directors, but most also mention that nursing home staffing
          shortages and inferior staff proficiency levels precipitate chronic quality of care in nursing
          homes. We looked at staffing ratios in the facility reported section of OSCAR data and
          found between six to nine residents for each certified nurse assistant (CNA) and between
          36 and 81 residents for each registered nurse (RN) considering three shifts per day. This
          does not account for weekends and days off and is only an average. Some homes may
          have a much higher ratio than others and there is no way of telling if some units within a
          nursing home are better staffed than others. Abuse of restraints, failure to treat
          incontinent patients, and improper medication distribution are also mentioned by State
          directors and surveyors as deficiencies that lead to substandard quality of care.


State directors and surveyors express reservations about
relying exclusively on OSCAR data to identify and
understand problems in nursing homes
Snapshot in time

          OSCAR data may not catch all the problems that exist in a nursing home due to the
          current survey process. Surveyors visit most facilities only once a year and cannot be
          cognizant of problems that occur throughout the year. Because many surveys do not take
          place on weekends on in the evenings, surveyors are limited in their assessment of the
          nursing home. In order to gain the most comprehensive understanding at a nursing home,
          OSCAR data should be used in combination with the surveyors visit and other State
          specific information.

          More than half of respondents believe that OSCAR data are not a true indicator of nursing
          home quality of care. The quality of care at the nursing home may have drastically
          changed for the better or worse. A common theme among many surveyors and directors
          is that OSCAR data only portray the situation of the nursing home at the time surveyors
          are physically conducting the survey. One director remarked, “OSCAR is simply a profile
          of what is found on the survey. Surveys depend on the characteristics of unique survey
          teams. Some very bad nursing homes may have a survey that portrays them positively and
          some very good nursing facilities may have a survey that portrays them negatively.”

          Most surveyors and more than half of directors are satisfied with OSCAR data but note
          problems and propose changes. Surveyors suggest using OSCAR data in conjunction with
          other tools to obtain an accurate view of quality of care. “OSCAR is only one part of the
          quality of care story”, one surveyor said. A director notes that OSCAR is a useful


Survey and Certification: Deficiency Trends         22                                      OEI-02-98-00331
          instrument to help focus a survey team during the pre-survey, but doesn’t indicate quality
          of care when analyzed alone. Respondents are concerned that OSCAR data are not user
          friendly, accurate, streamlined, accessible, or timely. Another director said, “OSCAR
          generated reports are cumbersome and time consuming.” The consensus of the
          respondents is that OSCAR is difficult to use.

Unclear definitions

          Some deficiency definitions are clear and easy to interpret such as “ the facility may not
          employ persons who have been found guilty of abuse.” The facility is responsible to
          provide information about background checks of their staff. Other easy to interpret
          deficiencies include; a facility with more than 120 beds must employ a qualified social
          worker on a full time basis, or a facility must provide private closet space in each
          resident’s room.

          However, other deficiencies hard to define or difficult to detect may be interpreted
          differently by various teams of surveyors. People might feel differently about what
          constitutes dignity or whether the nursing home is providing appropriate accident
          prevention measures.

          The majority of the State survey and certification directors and surveyors we interviewed
          believe that certain deficiencies have unclear definitions. They note some specific
          deficiencies that are open to individual interpretation and discretion. Of the 17 categories,
          those that are considered most problematic are “resident rights”, “resident behavior and
          facility practices”, “quality of life”, “quality of care”, and “nursing services.” Specific
          deficiencies in these categories include physical and chemical restraints, activities of daily
          living, and accidents. Unclear definitions can cause significant problems when surveyors
          are writing their survey reports. One surveyor notes, “some problems just don’t fit nicely
          into the deficiency categories.” Another surveyor states that the “use of psychoactive
          drugs is an awkward deficiency because the use of these drugs may be appropriate but the
          nursing home may have a poor way of documenting the need.”




Survey and Certification: Deficiency Trends         23                                     OEI-02-98-00331
                                RECOMMENDATION

          The resident-centered long-term care requirements of the nursing home survey are essential
          tp guarantee the quality of care in nursing homes. Clearly some major problems need to be
          addressed. Our findings support and elaborate on the Health Care Financing
          Administration’s (HCFA) initiative to strengthen the enforcement efforts by:

            <       making them more timely and effective,
            <       changing the survey schedule to make surveys more unpredictable,
            <       increasing the number of night and weekend surveys,
            <       increasing the number of surveys at nursing homes with chronic quality of care
                    problems, and
            <       focusing on specific problems such as pressure sores, dehydration, and malnutrition.

          These initiatives, if carried out completely, appear to be responsive to most of the problems
          in this report as well as our companion report “Nursing Home Survey and Certification:
          Overall Capacity.”

          Many of the most frequently cited deficiencies are directly related to reported shortage of
          direct care staff. The failure to provide proper treatment to prevent or treat pressure sores
          illustrates the lack of direct care staff to assure that residents are properly hydrated,
          nourished and turned frequently. In light of our findings in this report, additional action is
          needed. We recommend that HCFA:

            <       develop staffing standards for registered nurses and certified nurse assistants in
                    nursing homes to assure sufficient staff on all shifts to enable residents to have
                    proper care. Staffing standards should account for the intensity of care needed,
                    qualifications of the staff, and the specific characteristics of both the nursing home
                    and the residents.

          AGENCY COMMENTS

          We received comments on the draft report from HCFA and the Assistant Secretary for
          Planning and Evaluation (ASPE). The HCFA concurs with our recommendations. The
          ASL informally commented on the reports, and we made the appropriate changes.

          The ASPE expressed some concern about the ability of OSCAR data to assess quality of
          care in nursing homes. We recognize the limitations of OSCAR but used it as only one
          indicator of quality. We are happy to re-emphasize here what we say in our report that




Survey and Certification: Deficiency Trends           24                                      OEI-02-98-00331
          OSCAR data should not be looked at independently. In this report we used it in
          combination with the views of nursing home surveyors and State Directors.




Survey and Certification: Deficiency Trends      25                                   OEI-02-98-00331
                                                                                     APPENDIX A


                      Substandard Quality of Care Deficiencies
                                       Table VI
       “Resident Behavior and Facility Practices” Deficiencies in Sample States

              Deficiency                      3 Surveys   2 Surveys   1 Survey   Current     Percent
                                              Prior         Prior       Prior    Survey      Change
 Right to be free from                          1145        1245       1109       958          -16%
 physical restraints
 Right to be free from                           102           83       68         49          -52%
 chemical restraints
 Right to be free from abuse                     205        144         117       112          -45%
 Must have policies that                         198        172         122       162          -18%
 prohibit abuse and neglect
 May not employ persons                          409        382         300       341          -17%
 guilty of abuse
                  Total                         2059        2026       1716       1622         -21%
                                                                                   Source: OSCAR data




Survey and Certification: Deficiency Trends               26                                 OEI-02-98-00331
                                                 Table VII
                             “Quality of Life” Deficiencies in Sample States

              Deficiency                      3 Surveys   2 Surveys   1 Survey   Current   Percent
                                              Prior       Prior       Prior      Survey    Change
 Facility promotes/enhances                      117            38       14        15        -87%
 quality of life
 Facility promotes care that                    1470        1367        1164      1115       -24%
 maintains/enhances dignity
 Resident has the right to                       188         166        148        138       -27%
 make choices about aspects
 of life in the facility
 Right to organize and                           60             59       40        35        -42%
 participate in groups
 Facility must listen and                        123            33       27        34        -72%
 respond to groups
 Right to participate                            15             16       11        15         00%
 in activities
 Should have policies that                      1357        1147        835        787       -42%
 accommodate needs
 Receive notice of room or                       51             28       23        31        -39%
 roommate change
 Facility must provide an                        826         810        659        641       -22%
 activity program
 Facilities activity director                    66             46       34        53        -20%
 must be fully qualified
 Facility provides medically                     766         758        712        647       -16%
 related social services
 Facility must employ a                          56             27       26        12        -79%
 qualified social worker
 Facility must provide a safe,                   984         774        548        510       -48%
 clean, homelike environment




Survey and Certification: Deficiency Trends                27                              OEI-02-98-00331
 Housekeeping maintains                       1242    1076     1057   1023        -18%
 sanitary and comfortable
 interior
 Clean bed and bath linens                    214     150      121     96         -55%
 Private closet space                          57         33    14     15         -74%
 Adequate and comfortable                      90     67        44     35         -61%
 light
 Safe and comfortable                         119         76    61     75         -37%
 temperature levels
 Maintenance of comfortable                   220     204      178    157         -29%
 sound levels
                  Total                       8021    6875     5716   5434        -32%
                                                                      Source: OSCAR data




Survey and Certification: Deficiency Trends          28                         OEI-02-98-00331
                                               Table VIII
                            “Quality of Care” Deficiencies in Sample States

               Deficiency                     3 Surveys   2 Surveys   1 Survey   Current    Percent
                                                Prior       Prior       Prior    Survey     Change
 Provides necessary care for                    939            887      923        972          +04%
 highest practicable well-being
 ADL’s don’t decline unless                     346            268      212        201          -42%
 unavoidable
 Resident given appropriate                     314            313      320        339          +08%
 treatment to improve abilities
 ADL care provided for                          527            654      568        699          +33%
 dependent residents
 Resident receives treatment to                  37             56      58         50           +35%
 maintain vision and hearing
 Proper treatment to prevent                    984            1061    1005       1186          +21%
 or treat pressure sores
 Resident not catheterized                       72             97      98         102          +42%
 unless unavoidable
 Appropriate treatment for                      714            730      663        750          +05%
 incontinence
 No reduction in range of                        51             67      66         66           +29%
 motion unless unavoidable
 Appropriate range of motion                    411            537      548        607          +48%
 treatment
 Appropriate treatment for                      280            261      221        208          -26%
 mental or psychosocial
 functioning
 No development of mental                        20             22      13         21           +05%
 problems unless unavoidable
 No naso-gastric tube unless                     19             26      15          9           -53%
 unavoidable


Survey and Certification: Deficiency Trends               29                               OEI-02-98-00331
 Proper care for residents with               367          364    308      369          +01%
 naso-gastric tubes
 Facility is free of accident                 1402         1255   1147    1164          -17%
 hazards
 Adequate supervision and/or                  532          699    778      954          +79%
 devices to prevent accidents
 Resident maintains nutrition                 633          612    600      569          -10%
 status unless unavoidable
 Resident receives therapeutic                325          216    153      179          -45%
 diet when required
 Facility provides sufficient                 261          251    226      230          -12%
 fluid intake to maintain health
 Proper treatment and care for                278          282    257      298          +07%
 special needs
 Drug regimen free from                       785          784    786      768          -02%
 unnecessary drugs
 No use of antipsychotic drugs                101           75     69       65          -36%
 except when necessary
 Gradual dose reduction of                    115           90     76       52          -55%
 antipsychotic drugs
 Facility is free of medication               436          391    345      330          -24%
 error rates of 5% or more
 Residents are free from                      272          216    188      215          -21%
 significant medication errors
                  Total                       10221    10214      9643    10403          0.02
                                                                         Source: OSCAR data




Survey and Certification: Deficiency Trends           30                           OEI-02-98-00331
                                                                                           APPENDIX B

      Definitions of Substandard Quality of Care Deficiencies
“Resident Behavior and Facility Practices” Category

Deficiency - (Ftag)                                              Definition

F0221                                    Resident has the right to be free from any physical restraint for
                                         purposes of discipline or convenience.

F0222                                    Resident has the right to be free from any chemical restraint for
                                         purposes of discipline or convenience.

F0223                                    Resident has the right to be free from verbal, sexual, physical and
                                         mental abuse, corporal punishment, and involuntary seclusion.

F0224                                    Facility must have written policies and procedures that prohibit
                                         abuse and neglect.

F0225                                    Facility may not employ persons who have been found guilty of
                                         abuse
.
“Quality of Life” Category

Deficiency - (Ftag)                                              Definition

F0240                                    Facility must promote/enhances quality of life.

F0241                                    Facility must promote care that maintains or enhances dignity.

F0242                                    Resident has the right to choose activities, schedules, interact with
                                         members of community, and make choices about aspects of life in
                                         the facility.

F0243                                    Resident has the right to organize and participate in resident
                                         groups.

F0244                                    Facility must listen and respond to resident or family group.

F0245                                    Resident has the right to participate in social, religious, and
                                         community activities.

Survey and Certification: Deficiency Trends                31                                       OEI-02-98-00331
F0246                                    Facility should have policies that accommodate residents’ needs and
                                         preferences.

F0247                                    Resident to receive notice before room or roommate in the facility
                                         is changed.

F0248                                    Facility is to provide ongoing program of activities that fit resident.

F0249                                    Facilities director must be fully qualified.

F0250                                    Facility must provide medically related social services.

F0251                                    Facility with more than 120 beds must employ a qualified social
                                         worker on a full time basis.

F0252                                    Facility must provide a safe, clean, comfortable, and homelike
                                         environment.

F0253                                    Facility must provide housekeeping and maintenance services
                                         necessary to maintain a sanitary, orderly and comfortable interior.

F0254                                    Facility must provide clean bed and bath linens that are in good
                                         condition.

F0255                                    Facility must provide private closet space in each resident’s room.

F0256                                    Facility must provide adequate and comfortable lighting levels in all
                                         areas.

F0257                                    Facility must provide comfortable and safe temperature levels.

F0258                                    Facility must provide comfortable sound levels.

“Quality of Care” Category

Deficiency - (Ftag)                                              Definition

F0309                                    Facility to provide necessary care for the highest practicable
                                         physical, mental, and psychosocial well being.

F0310                                    Activities of daily living do not decline unless unavoidable.

F0311                                    Resident is given treatment to improve abilities.


Survey and Certification: Deficiency Trends                 32                                      OEI-02-98-00331
F0312                                    Activities of daily living care is provided for dependent residents.

F0313                                    Resident receive treatment to maintain hearing and vision.

F0314                                    Proper treatment to prevent or treat pressure sores.

F0315                                    Resident is not catheterized unless unavoidable.

F0316                                    Appropriate treatment for incontinent resident.

F0317                                    No reduction of range of motion unless unavoidable.

F0318                                    Resident with limited range of motion receives appropriate
                                         treatment.

F0319                                    Appropriate treatment for mental or psychosocial problems.

F0320                                    No development of mental problems unless unavoidable.

F0321                                    No naso-gastric tube unless unavoidable.

F0322                                    Proper care and services for resident with naso-gastric tube.

F0323                                    Facility is free of accident hazards.

F0324                                    Resident receives adequate supervision and assistance devices to
                                         prevent accidents.

F0325                                    Facility must maintain acceptable parameters of nutritional status
                                         unless unavoidable.

F0326                                    Resident receives therapeutic diet when required.

F0327                                    Facility must provide sufficient fluid intake to maintain proper
                                         hydration and health.

F0328                                    Facility must ensure that proper treatment and care is provided.

F0329                                    Each resident’s drug regimen must be free from unnecessary drugs.

F0330                                    No use of antipsychotic drugs except when necessary.




Survey and Certification: Deficiency Trends                33                                      OEI-02-98-00331
F0331                                    Residents who use antipsychotic drugs receive gradual dose
                                         reductions.

F0332                                    Facility must ensure that it is free of medication error rates of five
                                         percent or greater.

F0333                                    Residents are free of any significant medication errors.




Survey and Certification: Deficiency Trends                34                                       OEI-02-98-00331
                                                                           APPENDIX C

                                 Comments on the Draft Report

      In this appendix, we present in full the comments form the Health Care Financing
Administration, and the Assistant Secretary for Planning and Evaluation.




Survey and Certification: Deficiency Trends   35                                   OEI-02-98-00331
Survey and Certification: Deficiency Trends   36   OEI-02-98-00331
Survey and Certification: Deficiency Trends   37   OEI-02-98-00331
Survey and Certification: Deficiency Trends   38   OEI-02-98-00331
Survey and Certification: Deficiency Trends   39   OEI-02-98-00331
Survey and Certification: Deficiency Trends   40   OEI-02-98-00331
Survey and Certification: Deficiency Trends   41   OEI-02-98-00331
